Steven M. Wilker
steven.wilker@tonkon.com
Admitted in California, Oregon, and
Washington
503.802.2040 direct
503.221.1440 main

June 3, 2021

Via Electronic Filing System
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Re:

Crowe v. Oregon State Bar, No. 20-1678

Dear Mr. Harris:
Respondents consent to the filing of amicus curiae briefs in this case, whether in
support of either party or no party.
Very truly yours,
s/ Steven M. Wilker
Steven M. Wilker
Counsel of Record for Respondents
SMW/jw
cc:

Jacob Huebert, Counsel of Record for Petitioners
Timothy Sandefur, Counsel for Petitioners
Luke D. Miller, Counsel for Petitioners
W. Michael Gillette, Co-Counsel for Respondents
Elisa Dozono, Co-Counsel for Respondents
Meg Houlihan, Co-Counsel for Respondents
Paul Balmer, Co-Counsel for Respondents

099997\32730\12410430v1

